June 4, 2007

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory – Facilities Service Office Use of the Parsons’ Indefinite
         Quantity Contract (Report Number CA-MA-07-003)

This report presents the results of our review of Facilities Headquarters and the Pacific
Area Facilities Service Office use of the Parsons’ indefinite quantity contract1 (Project
Number 06YG029FA000). This report is the result of a February 3, 2006, Value
Proposition agreement between the U.S. Postal Service Office of Inspector General
(OIG) and the Postal Service, Supply Management Facilities Portfolio (SMFP).

                                                 Background

The OIG and the SMFP entered into an agreement on February 3, 2006, to develop and
conduct work focused on the Facilities Service Offices’ (FSO) use of the Parsons’
indefinite quantity contract (Contract Number 512582-03-B-0005). The goals of the
Value Proposition are to:

    1. Assure suppliers and responsible Postal Service personnel abide by the terms
       and conditions of the contracts and Postal Service regulations.

    2. Reduce cost and ensure the efficiency and effectiveness of the contracts.

The SMFP mission is to provide purchasing leadership for major facilities projects and
support client needs that are consistent with supply management and corporate
strategic objectives.

The SMFP is responsible for purchasing construction and design-build services for
projects approved by the Board of Governors and any approved project with an
estimated construction value in excess of $10 million. It supports the purchasing
functions of Facilities headquarters, FSO, and Headquarters Services. Facilities is an
enabling organization within the Postal Service whose primary mission is to: (1) provide
quality real estate and facilities products and services to meet present and future needs
of Postal Service organizations and (2) realize optimum value from their assets and
1
  The Parsons’ indefinite quantity contract enables Facilities Headquarters and the FSOs to contract with Parsons
Infrastructure and Technology Group, Inc., for various real estate related services on a program or project-by-project
basis.
Facilities Service Offices Use of the                                                              CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


transactions. Facilities has its headquarters in Arlington, Virginia, and eight FSOs
throughout the country.

The FSOs accomplish most of the Postal Service’s facilities program work. This
includes planning, leasing, purchasing, designing, and constructing facilities to house
Postal Service operations. Organizational administration, policy and procedure
development, and realty asset management functions are administered from their
headquarters.

The Postal Service issued a nationwide contract to the Parsons Infrastructure and
Technology Group, Inc., on July 16, 2003. This contract enables Facilities headquarters
and the FSOs to contract for real estate, design, construction management, operation
and maintenance, construction, and project/program management system services.
Program managers (usually at the FSO level) create work orders against this contract
on a program or project-by-project basis. The base contract period was 2 years with up
to four 2-year renewals (maximum 10 years) in addition to a “not to exceed” contract
price of $900 million for the entire period including renewals.

                            Objective, Scope, and Methodology

Our overall objective was to assess the FSOs’ use and administration of the Parsons
indefinite quantity contract. Specifically, we (1) determined whether the supplier and
FSO personnel were abiding by the contract terms and (2) reviewed work order
progress payments to determine if they complied with Postal Service regulations. We
also assessed the files maintained at Facilities headquarters.

To accomplish our objective, we reviewed documentation and applicable policy,
guidelines, practices, and procedures.2 We also visited Postal Service facilities and
interviewed managers and employees. In addition, we examined any material deemed
necessary to accomplish our objective. We judgmentally selected the Postal Service
Facilities Headquarters and the Pacific Area FSO to visit, as well as the Parsons’
headquarters. We conducted this review from June 2006 through June 2007 in
accordance with the President’s Council on Integrity and Efficiency, Quality Standards
for Inspections. We discussed our observations and conclusions with management
officials on February 13, 2007, and included their comments where appropriate. We did
not rely on computer-generated data to develop our findings. Therefore, we did not
conduct any testing of the validity of computer systems.




2
 The applicable policy, guidelines, practices, and procedures reviewed included Handbook F-15, Travel and
Relocation, February 2004 (updated with Postal Bulletin revisions through January 19, 2006); Handbook P-2, Design
and Construction Purchasing Practices, March 31, 1999; the Construction Administration Handbook, September 8,
2001; and the Parsons Indefinite Quantity Contract, July 13, 2003.




                                                        2
Facilities Service Offices Use of the                                           CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


                                         Prior Coverage
The SMFP group issued a report titled Program Management Contract No. 512582-03-
B-000 (dated October 22, 2004). The SMFP reviewed actual labor rates, payments,
and work orders for conformance to contract terms and content, and interviewed staff
members for feedback, comments, and suggestions on dealing with various FSOs and
headquarters. The SMFP found there was no review of progress payment backup
documentation, computer equipment payments were made without the Postal Service’s
approval, work orders were issued with travel as a fixed price, and travel was not in
accordance with Postal Service policy. The SMFP recommended the Contract Policy
and Procedures Committee review and discuss these findings at its meeting in March
2005. Additionally, the SMFP suggested that management provide more training in this
area and project managers start reviewing progress payment backup data.

                                            Results
Overall, Postal Service officials properly used and administered the Parsons indefinite
quantity contract. Specifically, Parsons, Facilities Headquarters and Pacific FSO
personnel generally abided by the contract terms. However, Pacific FSO personnel did
not always maintain complete work order files in accordance with Postal Service policy.
We found files with a value of $103,618 that were missing appropriate signatures. We
consider these funds to be assets at risk and will report them as non-monetary benefits
in our Semiannual Report to Congress. Furthermore, work order progress payments
were generally consistent with Postal Service regulations. However, the Parsons
contractor was permitted to incur extra and unnecessary travel costs at the expense of
the Postal Service.

Work Order Files Not Consistently Maintained According to Policy

We found the Pacific Area FSO work order file maintenance was not always consistent
with Postal Service requirements. Specifically, of the 148 work order files we reviewed,
59 did not have appropriate signatures. According to FSO management, work order
files were not complete due to a shortage of personnel and paper work was not all in
one place or had been misfiled. However, the FSO is in the process of hiring additional
staff. Also, the FSO personnel received approval from SMFP officials to divert from the
contract terms and use “draft” work orders for similar type of work at multiple facilities.

The work order files reviewed totaled $8.4 million, and at the time of our review, we
found that the files not consistently maintained accounted for 77 percent of total dollar
value (or $6.5 million). However, after we issued our draft report, Pacific Area FSO
management provided additional documentation that was not made available to the
audit team at the time of the site visit. See the table below for breakout by section:




                                               3
Facilities Service Offices Use of the                                                              CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


                                                                       Dollar Value Using
                                                       3
                                      Dollar Value Using             Information Provided
                                        Files Provided               After Issuance Of Our
        Work Order Issue              During the Review                   Draft Report
        Appropriate                            $6,510,843                          $103,618
        Signatures Missing

Appropriate approving signatures were missing on 59 work orders in the contract files
made available to the OIG during our field visit; however, the Pacific FSO later provided
signed forms for 57 of the 59. Appropriate signatures show that management reviewed
and properly approved projects and work order requests. Review and approval of the
work order is critical in assuring that the work contracted will be done correctly and
according to policy and that expected costs are reviewed and controlled. As this critical
control was not applied to $103,618 of work orders, we consider those funds to be
assets at risk and will report them as non-monetary benefits in our Semiannual Report
to Congress.

Recommendation

We recommend the Vice President, Facilities:

    1. Direct Facilities Service Office managers to ensure Facilities Service Office
       personnel maintain complete work order project files in accordance with Postal
       Service policy.

Management’s Comments

Management agreed with our recommendation. Management plans to develop
standard operating procedures for creating work orders and to evaluate possible system
enhancements to help reduce or eliminate data entry errors on work orders. However,
management did not agree with the specifics of our finding regarding 59 work orders
that were missing appropriate signatures. Management provided copies of 28 signed
work orders located after our site visit. In addition, management stated 29 of the work
orders were part of a multi-site program and that they had chosen to use “draft” work
orders to cover several facilities with the same type of work, instead of issuing individual
work orders. According to management, this allowed for a more efficient and
streamlined process. Management also stated that as an additional check and balance
the eFMS application4 requires Postal Service Form 4211, Facility and Fixed
Mechanization Project Contract Commitment Order, to be created and approved for a
contracting officer before any financial activity occurs. Because of these other factors,
they do not consider any funds at risk with the Form 4211 process in place.

3
 Some of the work orders contained multiple issues; however, the dollar values were only counted once.
4
 eFMS is a facilities management system that includes modules for real estate contracting, lease payment, design
and construction contracting, facilities program management, realty asset management, user forum, Post Office box
designer, space requirements, financial, projects, approvals, and reports.




                                                           4
Facilities Service Offices Use of the                                            CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


Management disagreed that $218,698 of work order summaries had incomplete
information on the headings. Management provided additional documentation and
explanations to clarify the finding. Management also stated the incomplete headings
did not result in funds at risk. Management’s comments, in their entirety, are included in
the appendix of this report.

Evaluation of Management’s Comments

Management’s actions taken are responsive to the recommendation and should correct
the issues identified in the finding. Management expressed concerns with our specific
findings regarding work orders without appropriate signatures and work orders with
incomplete headings. In regards to management’s concerns about work orders without
appropriate signatures, we reviewed the 28 work orders that were not available during
our site visit and accepted them as valid contracts. We also accepted management’s
explanations for using draft work orders for 29 transactions and for SMFP officials
allowing Pacific FSO officials to divert from contract practices. However, two work
orders with a total value of $103,618 did not have the appropriate signatures of the
contracting officer and supplier. We consider these funds to be assets at risk and will
report them as non-monetary benefits in our Semiannual Report to Congress.

To protect the Postal Service’s interests under an indefinite quantity contract, work
orders must be submitted with the proper signatures. Each work order is an individual
contract and must be signed by both the supplier and the contracting officer. The Form
4211 does not constitute a valid contract since it only requires the contracting officer’s
approval. Therefore, funds committed on Form 4211 must have the supporting contract
for complete checks and balances.

In regards to management’s concerns about the $218,698 of work orders with
incomplete headings, we reviewed and accepted management’s documentation that
was made available after the issuance of our draft report. Information that was not
completed in headings of the work order summaries was found on other documentation
in the file. Thus, we did not report this amount as assets at risk, and did not include that
portion of the finding in this final version of the report.

Travel Expenses

Work order progress payments were generally consistent with Postal Service
regulations. However, the Parsons contractor was permitted to incur extra and
unnecessary costs at the expense of the Postal Service. For example, a Parsons
contractor regularly used the prepaid fuel option for rental cars even for trips of just 1-
day or 1-night in duration. The same contractor claimed per diem for lunch for several
1-day trips. However, work hours were not included to show whether the trip met the
threshold for receiving per diem. When travel status is less than 12 hours during the




                                              5
Facilities Service Offices Use of the                                                           CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


same calendar day, no per diem is allowed.5 In addition, the contractor used a rental
car for an 8-mile trip when a shuttle bus or taxi would have cost less. We did not find
indications of review (such as notations or corrections to the submitted documentation)
because the expense was classified on the work order and supporting documents as a
fixed price item. Expense documentation does not have to be thoroughly reviewed
when travel is included as a fixed price item.

Recommendation

We recommend the Vice President, Facilities:

    2. Direct Facilities Service Office managers to ensure Facilities Service Office
       personnel adhere to the Parsons contract when contracting for travel and to
       Postal Service policy when reviewing travel costs.

Management’s Comments

Management agreed with our recommendation. Management plans to assign someone
with an extensive background and knowledge of contracting to provide oversight and
review to ensure the issues do not recur. However, management did not agree with the
specifics of our finding about travel expenses that were reimbursed as fixed.
Management provided documentation to clarify that these expenses were actually paid
as cost reimbursable expenses.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation and their planned
actions should correct the issues identified in the finding. Our draft report raised an
issue regarding travel expenses that were reimbursed as fixed. Management noted in
their comments that these expenses were actually paid as cost reimbursable expenses.
Based on their comments and documentation reviewed, we revised this portion of the
report. Therefore, the previous recommendation regarding reimbursement does not
appear in the text of this final report. However, documentation supporting adequate
review of cost reimbursable travel cost remains an issue.




5
 Handbook F-15, Travel and Relocation, Section 7-1.2.1, Travel Completed Within 12 Hours During the Same Day,
February 2004 (updated with Postal Bulletin revisions through January 19, 2006).




                                                      6
Facilities Service Offices Use of the                                      CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.

  E-Signed by Tammy Whitcomb
 ERIFY authenticity with ApproveI




Tammy Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Susan M. Brownell
    Tim Perez
    Albert J. Novack
    Kayode F. Kadara
    Deborah A. Kendall
    Katherine S. Banks




                                          7
Facilities Service Offices Use of the                  CA-MA-07-003
 Parsons’ Indefinite Quantity Contract


                     APPENDIX. MANAGEMENT’S COMMENTS




                                         8
Facilities Service Offices Use of the        CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         9
Facilities Service Offices Use of the         CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         10
Facilities Service Offices Use of the               CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         Redacted




                                            11
Facilities Service Offices Use of the               CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         Redacted




                                            12
Facilities Service Offices Use of the         CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         13
Facilities Service Offices Use of the               CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         Redacted




                                            14
Facilities Service Offices Use of the               CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         Redacted




                                            15
Facilities Service Offices Use of the               CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         Redacted




                                            16
Facilities Service Offices Use of the         CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         17
Facilities Service Offices Use of the         CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         18
Facilities Service Offices Use of the         CA-MA-07-003
 Parsons’ Indefinite Quantity Contract




                                         19
